JESSICA L. ADAIR

AARON D. FORD

Chief of Staff

Attorney General

LESLIE NINO PIRO

KYLE E. N. GEORGE

General Counsel

First Assistant Attorney General

STATE OF NEVADA

CHRISTINE JONES BRADY
Second Assistant Attorney General

HEIDI PARRY STERN
Solicitor General

OFFICE OF THE ATTORNEY GENERAL
100 North Carson Street
Carson City, Nevada 89701

July 30, 2021
Via Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Tina Cates v. Bruce D. Stroud, No. 20-1438
Dear Mr. Harris,
I write on behalf of Respondents in the above captioned matter to request an extension of the
time to file a brief in opposition to the petition for writ of certiorari. Respondents request a 30-day
extension of the current deadline of August 2, 2021, extending the time to file the brief in opposition
to September 1, 2021. This is Respondents’ second request for an extension. Counsel for the
Petitioner indicated that they consent to the extension.
The requested extension is necessary and proper. In addition to the normal press of day-to-day
business, in the last month the Nevada Solicitor General’s Office has been particularly busy preparing
the brief in opposition in this matter, prosecuting an appeal challenging the entry of a preliminary
injunction in Floyd v. Daniels, 21-16134, and responding to emergent litigation in both state and
federal court challenging the constitutionality of recently passed state legislation addressing selfmanufactured firearms.
Very truly yours,
AARON D. FORD
Attorney General
By: /s/ Heidi Parry Stern
Heidi Parry Stern (NV Bar No. 8873)
Solicitor General
Counsel for Respondents
cc: James Reid Sigel, Counsel for Petitioner (via electronic mail)
Travis Barrick, Esq., Counsel for Petitioner (via electronic mail)

Telephone: 775-684-1100 ● Fax: 775-684-1108 ● Web: ag.nv.gov ● E-mail: aginfo@ag.nv.gov
Twitter: @NevadaAG ● Facebook: /NVAttorneyGeneral ● YouTube: /NevadaAG

